                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS
                                                                                        '
                                              CLOSEOUT MEMORANDUM

Case Number: A13030051                                                                         Page 1 of 1




                                                            Closeout

                 We reviewed an allegation that an assistant professor1 (Subject) had created a false entry
         on the biographical sketch for one of his NSF Proposals2, as well as that he had plagiarized text
         into the NSF Proposal. Our review found that, while there was inadequate attribution to the text,
         much of the text was cited to the source. In addition, the amount of copied text was relatively
         small. We also examined three ofthe Subject's other NSF p~oposals, including a CAREER. We
         found no further copied text.

                 In addressing the allegedly falsely claimed publication, the Subject stated that the incorrect
         biographical sketch entry was an error due to his process. We also found that his unorthodox method
         of indicating submitted work with the word "pending" creates the impression that the work is instead
         forthcoming.

                We determined that these actions did not warrant a full investigation into possible research
         misconduct. We warned the Subject, sending him a Questionable Research Practice letter, which
         reminded him of the importance of avoiding research practices that may lead to the impression of
         research misconduct.

                   This case is closed with no further action taken.




NSF OIG Form 2 (11102)
